No.

IN THE
SUPREME COURT OF THE UNITED STATES

SHLOMIT RUTTKAMP
Petitioner,
VS.

THE BANK OF NEW YORK MELLON, ET AL.
Respondent(s),
PROOF OF SERVICE
I, the petitioner, Self-Represented Shlomit Ruttkamp, do
swear or declare that on this date, October 5, 2021, as required
by Supreme Court Rule 29,1 have served the enclosed
PETITION FOR A WRIT OF CERTIORARI on each party to the
above proceeding or that party’s counsel, and on every other
person required to be served, by depositing an envelope
containing the above documents in the United States mail
properly addressed to each of them and with first-class postage
prepaid, or by delivery to a third-party commercial carrier for
delivery within three calendar days.
The names and addresses of those served are as follows:
HON. EDWARD S. DOMNARSKI
Superior Court Judge
1 Court Street
Middletown, CT 06457
Juris No. 418032

GERALDINE ANN CHEVERKO
10 Bank Street, Suite 700
White Plains, NY 10606
Phone: (914) 949-2909
gcheverko@eckertseamans.com
Juris No: 418503
TIMOTHY LODGE
P.O. Box 1204
Glastonbury, CT 06033
Phone: (860) 585-5815
Email: LODGE912@AOL. COM
Juris No: 416965
WILLIAM J. RUTTKAMP
P.O. Box 343
Westbrook, CT 06498
Phone: (860) 581-3601
Email: bi!171709@vahoo.com
REVELEY WILLIAM G. & ASSOCIATES LLC
P.O. Box 657
Vernon, CT 06066
Phone: (860) 872-0686
Email: wgrevelev@sbcglobal.net
Juris No: 423840

RESPECTFULLY SUBMITTED, PETITIONER
Pro se

October 5, 2021

ShlomiVRuttkamp
P.O. Box 611
Westbrook, CT 06498
Phone: 860-853-8859
Email: rshlomit@vahoo.com

